<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-344]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-344

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on


S. 876                   S. 2556                  S. 2688
S. 1890                  S. 2657                  S. 2702
S. 2425                  S. 2660                  S. 2714
S. 2508                  S. 2668
 


                               __________

                            NOVEMBER 6, 2019

                               __________



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-870                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman

JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                         Subcommittee on Energy

                         BILL CASSIDY, Chairman

JAMES E. RISCH                       MARTIN HEINRICH
MIKE LEE                             RON WYDEN
STEVE DAINES                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
CINDY HYDE-SMITH                     DEBBIE STABENOW
MARTHA McSALLY                       MAZIE K. HIRONO
LAMAR ALEXANDER                      ANGUS S. KING, JR.
JOHN HOEVEN                          CATHERINE CORTEZ MASTO

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
                      Jed Dearborn, Senior Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
             Renae Black, Democratic Deputy Staff Director
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, Subcommittee Chairman and a U.S. Senator from 
  Louisiana......................................................     1
Heinrich, Hon. Martin, Subcommittee Ranking Member and a U.S. 
  Senator from New Mexico........................................     2
King, Jr., Hon. Angus S., a U.S. Senator from Maine..............     3
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     4
Cortez Masto, Hon. Catherine, a U.S. Senator from Nevada.........     5

                               WITNESSES

Smith, Hon. Tina, a U.S. Senator from Minnesota..................     3
Simmons, Hon. Daniel, Assistant Secretary, Office of Energy 
  Efficiency and Renewable Energy (EERE), U.S. Department of 
  Energy.........................................................     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Advanced Energy Economy, et al.:
    Letter for the Record........................................    51
Alliance to Save Energy, et al.:
    Letter for the Record........................................    53
American Chemical Society:
    Letter for the Record........................................    55
American Wind Energy Association:
    Letter for the Record........................................    57
Cassidy, Hon. Bill:
    Opening Statement............................................     1
ClearPath Action:
    Letter for the Record........................................    59
Cortez Masto, Hon. Catherine:
    Opening Statement............................................     5
Cyrq Energy:
    Letter for the Record........................................    60
Electric Power Supply Association:
    Statement for the Record.....................................    61
Fervo Energy:
    Letter for the Record........................................    64
Geothermal Exchange Organization:
    Letter for the Record........................................    65
Geothermal Resource Group:
    Letter for the Record........................................    66
Geothermal Resources Council:
    Letter for the Record........................................    68
Heinrich, Hon. Martin:
    Opening Statement............................................     2
King, Jr., Hon. Angus S.:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     4
Shaheen, Hon. Jeanne:
    Statement for the Record.....................................    70
Simmons, Hon. Daniel:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................    26
Smith, Hon. Tina:
    Opening Statement............................................     3
Third Way:
    Letter for the Record........................................    71
U.S. Green Building Council:
    Letter for the Record........................................    72

                               __________
                               
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/11/subcommittee-on-
energy-legislative-hearing

 
                          PENDING LEGISLATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2019

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Bill Cassidy, 
presiding.

            OPENING STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy [presiding]. The hearing is now in order. 
Thank you, everyone, for being here. The purpose of this 
hearing is to receive testimony on several bills, and this 
Subcommittee is now convening its third legislative hearing.
    The legislative hearing allows us to receive testimony and 
ask questions from the Assistant Secretary of the U.S. 
Department of Energy (DOE), Dan Simmons. Today's hearing is 
another opportunity to consider a wide range of bills aimed at 
emission reduction technology programs, cybersecurity and job 
training in the energy sector.
    One of the bills being considered is a bill I introduced 
with my colleague, Senator Whitehouse, the Technology 
Transition Act. The Office of Technology Transition works 
across the Department of Energy to turn innovative ideas into 
commercialization. This legislation builds on previous efforts 
from Congress and the Department of Energy. It puts the Office 
of Technology Transition (OTT) in a better position for 
success.
    In a competitive world, we need technology and innovation 
to lower emissions, and it is important we look for ways to 
speed scientific discovery and support national labs who carry 
out these efforts. We can show the world that through 
innovation, we can lower emissions and maintain a modern 
economy with robust employment. As this Committee continues to 
consider energy innovation bills, it is important that the 
right policies are in place to ensure research and development 
dollars are turned into commercialized technology.
    I will now turn to my colleague and friend, Ranking Member 
Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman Cassidy, for holding 
our third legislative hearing this year in the Energy 
Subcommittee, and welcome to our witness, Assistant Secretary 
Simmons. Thank you for being here and for testifying.
    We have a good body of work to show for our efforts this 
year in the Energy Subcommittee. We reported out 22 energy 
bills in July, another 21 bills last month and we are moving 
another 11 bills through the Committee process in today's 
hearing.
    Our agenda today includes a wide-ranging group of bills, 
including measures to improve DOE's role in innovation and 
technology commercialization, make the most of nuclear energy 
to help decarbonize the grid, promote a skilled energy 
workforce, advance renewable energy, keep the grid safe from 
cyber threats, and improve energy efficiency. These are the 
types of bills that we should be able to build into a broadly 
supported, I believe, bipartisan energy package.
    I am especially pleased that Senator Cortez Masto's bill, 
the Renew America's Schools Act, is on the agenda. I am a co-
sponsor of this bill which would establish a competitive grant 
program specifically targeted at low income populations to make 
energy efficiency upgrades, install clean energy and renewables 
for schools and, basically, lower schools' energy bills. Under 
this bill, grants could also be used to help schools transition 
to zero emissions vehicles and buses and install electric 
vehicle charging infrastructure. The bottom line is the bill 
would make our schools healthier with improved ventilation, 
daylighting, and air quality, and a number of studies have 
shown increased performance based on those kinds of changes.
    I am also pleased to see research and development 
authorization bills from Senator Sinema for solar energy, and 
Senator Smith, who has joined us, for wind energy, on today's 
agenda. Advancing non-polluting technology should be a critical 
element of any energy innovation package that this Committee 
might put together in the coming weeks.
    We also have two workforce and career development bills on 
the list. Ensuring that we have a strong energy workforce will 
be essential as we transition to a cleaner energy future. That 
is also why I have introduced S. 2393, the Clean Energy Jobs 
Act, with Senator Manchin, and I hope to see that bill on our 
next markup.
    Finally, I am glad to see this Committee continues to focus 
on programs at DOE that are at the forefront of driving 
innovation in our economy. In particular, Senators Van Hollen 
and Alexander's ARPA-E reauthorization bill ramps up funding 
over the next five years to be more in line with what we need 
to keep us at the cutting edge of energy technology globally.
    I also appreciate my colleague, Senator Cassidy, for 
introducing his Technology Transitions Act which codifies DOE's 
important Office of Technology Transitions. The bill is a 
companion to the bipartisan Technology Maturation legislation 
that Senator Gardner and I introduced earlier this year, and 
working to improve the process of tech transfer from DOE's 17 
laboratories to the private sector is a key priority.
    I look forward to working with Chairman Cassidy as well as 
the Chair and Ranking Member of the Full Committee to keep this 
momentum going. I think there has been some frustration with 
the pace of the Senate. I have certainly experienced that in 
this current legislative session and this current Congress, but 
we have some great bills here. I believe we can be the 
exception rather than the rule and really get some good energy 
bills done for our country.
    Thank you, Chairman.
    Senator Cassidy. Senator Smith, I believe you have an 
opening statement.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much, Chair Cassidy and 
Ranking Member Heinrich. It's great to be back with the Energy 
Committee, and I really welcome the opportunity to testify here 
this morning.
    So today you are considering several important bills that 
would advance clean energy, the clean energy transition, and 
I'm happy to have my bill be a part of this conversation. I'm 
pleased to speak about this bipartisan bill that I've 
introduced with Senator Collins, the Wind Energy Research and 
Development Act. This bill would extend and expand the Wind 
Energy program at the Department of Energy.
    Now we know that wind energy is growing fast, and it now 
accounts for about 6.5 percent of total U.S. electric 
generation. And in Minnesota wind energy already accounts for 
nearly 20 percent of the electricity that we use in our state.
    Increased use of wind energy is not just good for our 
environment, it is also good for our economy. Wind supports 
114,000 jobs nationwide, and that number is growing. And 
importantly, wind energy boosts rural economies. Farmers can 
earn annual payments of anywhere between $4,000 and $8,000 per 
turbine and still farm underneath those turbines.
    So the federal research and development funding is crucial 
for continuing advancements in wind technology. I want the 
world to be installing U.S.-made wind turbines containing U.S.-
patented technology. Wind research and development is key to 
building U.S. leadership. And as with every aspect of the clean 
energy revolution, we can lead or we can follow and I want the 
United States to lead.
    So, thank you, my colleagues, for hearing this bill today, 
and I ask for your support.
    Senator Cassidy. Are you moving back permanently to the 
Committee?
    Senator Smith. Well, that is a, I believe that that is 
above my pay grade, Senator, but I love this Committee very 
much and would love to be back.
    Thank you.
    Senator Cassidy. Senator King.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Mr. Chairman.
    I think the common denominator, as we have been discussing 
this morning, is innovation which is really, I believe, the key 
to the energy future. Innovation in storage. Innovation in low-
carbon fuels. Innovation in cleaner deployment of fossil fuels.
    I think we have a lot on our plate here today. I am 
delighted to see Mr. Simmons here. We have worked together in 
the past, and I think they are really doing a great job.
    The bill that I am particularly interested in involves 
something called CHP, combined heat and power. We used to call 
it co-generation but it is a very sensible technology to get 
both electricity and heat, use the heat made in the generation 
of electricity in useful ways and, therefore, much more 
efficiently, use whatever the resources are that are generating 
the electricity.
    There is a technical assistance program Mr. Simmons knows 
about. The University of Maine is the center of this in New 
England. I think it has been very effective. The bill that I am 
proposing today would extend that program and, I think, 
underlies the benefits.
    So innovation and the next generation of energy technology 
is really what we are after here. I look forward to working 
with the Committee. The Committee, as Senator Henrich points 
out, has had a really good, great record this year of 
legislation. Now we have to see what we can do to get it across 
the finish line on the Floor of the Senate. But I am proud of 
the work that we have done thus far and look forward to our 
work today. Thank you.
    Senator Cassidy. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Mr. Chairman, Senator Heinrich, thank you for 
this Subcommittee hearing today. Good bills before the 
Subcommittee, and I wanted to just say a couple words about two 
of the bills that we have on the agenda today.
    The first one I would like to address is the Protecting 
Resources On The Electric grid with Cybersecurity Technology, 
or PROTECT, Act. This is something that Senator Manchin has 
been working on with me, along with Senators Risch, King and 
Cantwell. What we do with this legislation is enhance the 
security of our nation's electric grid by providing electric 
utilities with incentives, grants and technical assistance to 
invest in innovative cybersecurity technology that improves 
their security posture over and above the level that is 
required by industry standards.
    I think we all recognize the role, the importance of our 
electric grid, on really every sector of our economy. But what 
we are hoping to do with this Act is to strengthen the 
cybersecurity partnership between private industry and the 
Federal Government and to deploy more advanced cybersecurity 
technologies. This is something we talk a lot about in this 
Committee, and I think this is one of those just, again, 
commonsense measures that will move us one step closer.
    The other bill that the Subcommittee is going to be taking 
up this morning is the Advanced Geothermal Innovation 
Leadership Act. We call this the AGILE Act. I am co-sponsoring 
this with Senator Manchin. Some might not think of West 
Virginia or Alaska as being states that have geothermal 
resources, but that is really what this Act is all about. 
Hopefully it will enable us to unlock new technologies to allow 
for affordable geothermal heat and power, really anywhere, in 
the country.
    So what we do is update our national assessment of 
geothermal resources to encompass new technologies and market 
opportunities like underground heat storage. We expand 
geothermal energy research into important secondary uses like 
mineral recovery. We create a prize competition for the co-
production of minerals from geothermal brines. We also jump-
start enhanced geothermal by authorizing four demonstration 
projects including, for the first time, one on the Eastern half 
of the United States, that is obviously of interest to Senator 
Manchin, but we also improve permitting for developing 
geothermal resources on federal lands. This is a process that 
right now is taking anywhere from seven to ten years. So you 
look at that and you just say, there has to be a better way.
    When you think about geothermal as a baseload renewable 
energy resource with huge potential, any of you that have ever 
had an opportunity to go visit Iceland and see what that nation 
has done. It is really quite remarkable. Now obviously they 
have a resource that is much more accessible, but what we have 
learned is that the technologies that helped bring the shale 
revolution to this country are the same types of technologies 
that can help us with regards to geothermal.
    So we are excited about that one and as we think about the 
different renewables that we are putting forward in this 
Committee, whether it is the solar, the wind, the geothermal. 
Senator Wyden has an ocean energies water resources bill. There 
are some good things that are coming together so it is quite 
exciting, and I am pleased that the Subcommittee is focused on 
it.
    Thank you.
    Senator Cassidy. Thank you, Madam Chair.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Thank you to the Chairman 
and Ranking Member.
    Let me just say one thing about geothermal--we are very 
supportive in Nevada. We have a lot of geothermal energy, and 
it is not only a benefit to some of our commercial businesses, 
but residential as well. So I am a big fan and look forward to 
working with the Committee and my colleagues on promoting more 
geothermal.
    I also want to thank both the Chairman and Ranking Member 
for including my bill, the Renew America's Schools Act, which 
is 
S. 1890, among the legislation being considered during today's 
hearing. This Committee has taken up the issue of energy 
efficiency and widely agrees that one of the most immediate 
actions we can take to reduce our greenhouse gas emissions is 
to improve our buildings and maybe even our vehicles to drive 
down the use of energy needed to power our everyday lives.
    My bill would create a federal grant program available to K 
through 12 schools to make energy efficiency improvements to 
lighting, heating, cooling, and ventilation systems, install 
renewable energy technologies to power our public schools, and 
purchase zero emissions vehicles and install the necessary 
infrastructure for those vehicles. Modernizing our schools to 
make them more energy efficient not only helps drive down 
emissions in our communities, but it also helps reduce our 
school's energy costs, leaving more money in school budgets for 
supplies and programs that directly benefit our children.
    That is just one example of what this bill aims to address. 
Millions of young students ride diesel buses to school every 
day. Studies have shown that the air inside of these buses can 
be up to five times more polluted than the air outside the bus. 
Transitioning away from diesel buses to electric vehicles would 
immediately improve the air our children breathe on their way 
to school and reduce the health risks that result from 
emissions exposure and impede a student's ability to learn.
    The Renew America's Schools Act saves our schools money, 
and it makes our communities healthier. I invite my colleagues 
in the Senate to join me on this bill and look forward to the 
thoughtful discussion during today's hearing.
    Thank you.
    Senator Cassidy. Mr. Simmons, I believe you are up.

 STATEMENT OF HON. DANIEL SIMMONS, ASSISTANT SECRETARY, OFFICE 
    OF ENERGY EFFICIENCY AND RENEWABLE ENERGY (EERE), U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Simmons. Thank you.
    Chairman Cassidy, Ranking Member Heinrich, Chairman 
Murkowski, thank you for the opportunity to testify today. And 
before I get to my testimony, I'll just note that a few minutes 
ago we announced $128 million in selections on our Solar FOA 
for the year. That is $23 million for photovoltaic solar 
research, $30 million for CSP research and development, $17 
million for projects on balance in system soft costs, $6.8 
million for innovations in manufacturing for a hardware 
incubator and $50 million for advanced solar systems 
integration technologies. That went out a few minutes ago. I 
don't even know if it's public yet, but it has been sent to 
your staff. So we're very excited about that, about those 
awards, and look forward to seeing the technologies and 
improvements that comes from that funding.
    I've been asked to testify on 11 bills today addressing a 
range of important energy issues. The Administration continues 
to review all these bills, and I appreciate the ongoing 
bipartisan efforts to address our nation's energy challenges. I 
look forward to working with the Committee. The bills being 
discussed today address many important energy technologies and 
activities at the Department of Energy.
    The Renew America's Schools Act would authorize and direct 
the Secretary of Energy to award competitive grants for energy 
efficiency and renewable energy projects at public schools. The 
Department currently provides technical assistance to a number 
of K through 12 schools across the country to help them achieve 
voluntary commitments of a 20 percent or better energy savings 
in their facilities through the Better Buildings Challenge. 
While the Department continues to review this legislation, we 
support improving energy efficiency and reducing energy costs 
for schools and other buildings.
    The CHP Support Act amends the Energy Policy and 
Conservation Act to establish a combined heat and power 
technical assistance partnership program, reauthorizing 
existing CHP technical assistance partnerships in the 
Department's Advanced Manufacturing Office. The program would 
continue to provide education and outreach to building, 
industrial, electric and natural gas utility professionals, 
state and local policymakers and other stakeholders with an 
interest in not only CHP but also in waste heat to power and 
efficient district energy technologies.
    The Promoting American Energy Security Jobs Act would 
direct the Secretary to establish a council to conduct a survey 
and analysis of the employment figures and demographics in the 
energy, energy efficiency and motor vehicle sectors in the 
United States. Like many others in the Department of Energy, I 
recognize the need for a skilled and technical workforce for 
energy sector careers. I look forward to working with the 
Committee to identify and implement strategies to ensure that 
America continues to cultivate capable energy workforces.
    The PROTECT Act amends the Federal Power Act to provide 
energy cybersecurity investment incentives to establish a grant 
and technical assistance program for cybersecurity investments. 
The Department understands the challenges and risks that 
cybersecurity poses to our energy infrastructure. The 
Department's Office of Cybersecurity, Energy Security, and 
Emergency Response addresses the emerging threats of tomorrow 
while protecting the reliable flow of energy to Americans today 
to improve energy infrastructure security and support the 
nation's national security, the Department's national security 
mission.
    The AGILE Act aims to accelerate geothermal energy 
development in the U.S. by addressing technical and non-
technical barriers to geothermal in both electric and direct 
use sectors. The bill would achieve this through promoting 
research and development, encourage technology transfer from 
the geothermal and oil and gas industries and explore ways to 
improve federal permit coordination. The Department's 
Geothermal Technology Office is currently working to address 
many challenges concerning geothermal development. The Office 
recently published the GeoVision analysis which found that 
optimizing permitting timelines could reduce costs and 
facilitate geothermal capacity development, potentially 
doubling installed geothermal capacity by 2050.
    The Solar Energy Research Development and Demonstration 
Program Act reauthorizes the activities of EERE's Solar Energy 
Technology Office and outlines several research priority areas 
such as improving the energy efficiency, reliability and 
security of solar energy technologies while also focusing on 
reducing the overall cost of energy systems. The bill 
authorizes additional work to be carried out by the Solar 
Office such as providing technical assistance, supporting 
workforce development and training activities and awarding 
grants to carry out both research and development and 
demonstration projects.
    The Wind Energy Research and Development Act reauthorizes 
the activities of EERE's Wind Office and outlines several 
research priority areas such as improving the energy 
efficiency, reliability and capability of wind generation and 
supports the development of innovative designs for both land 
use and offshore wind technologies. The bill also outlines 
several grant subject areas including research and development 
on recycling and reuse of wind energy technology components and 
grants to help mitigate regulatory and market barriers.
    The Technology Transition Act codifies the Office of 
Technology Transitions at the Department of Energy and to 
expand the commercial impact of the Department's research 
investments and focus on commercializing technologies that 
reduce greenhouse gas emissions. This bill reiterates the work 
of the Department under the leadership of the Secretary as 
undertaken as part of the existing Office of Technology 
Transitions. This Office will highlight the Department's vast 
research capabilities which are so important to ensuring our 
domestic energy and national security as well as American 
economic competitiveness.
    The Integrated Energy Systems Act would direct the 
Secretary of Energy to establish an integrated energy systems 
research development and demonstration program between multiple 
department offices including the Nuclear Energy Office to be 
known as the Integrated Energy Systems Program. The intent of 
the program is to maximize energy production and efficiency; 
improve reliable, competitive, environmentally sustainable 
electricity to the grid; expand the use of emissions-reducing 
technologies and enable the U.S. energy infrastructure to 
support the quantity and variability of the types of size of 
generation devices and smart load devices of the future.
    The Energy Jobs for our Heroes Act would establish the 
``Energy Ready Vets Program'' which would help prepare veterans 
for careers in the energy industry. The program will allow 
eligible participants to earn an applicable energy industry-
recognized entry level certificate or other credential which 
would be carried through the skill bridge program of the 
Department of Defense. The Department of Energy supports the 
bill's goals of strengthening energy job training opportunities 
for our nation's veterans.
    And the ARPA-E Reauthorization Act would reauthorize, would 
authorize a significant increase in the Department's Advanced 
Research Projects Agency-Energy (ARPA-E) funding from $428 
million in FY 2020 to $750 million in FY 2024. The bill would 
also reauthorize ARPA-E to support projects that improve the 
resilience, reliability and security of the nation's energy 
infrastructure. While the Department continues to review the 
legislation, we remain in strong support of ARPA-E's early-
stage, high-risk energy technology solutions.
    In conclusion, thank you very much for the opportunity to 
testify before the Subcommittee today. The Department 
appreciates the ongoing, bipartisan efforts to address our 
nation's energy challenges and look forward to working with the 
Committee on today's bills and any future legislation. I'd be 
happy to answer your questions.
    [The prepared statement of Mr. Simmons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cassidy. Senator Heinrich and I have to be here no 
matter what, so we are going to defer to Senator Cortez Masto 
to begin the questioning.
    Senator Cortez Masto. Thank you, I appreciate that.
    Mr. Simmons, thanks for being here today. It is good to see 
you again.
    Let me start with increasing energy efficiency in schools, 
and thank you for your comments regarding the Renew America's 
Schools Act.
    Energy costs for K through 12 schools total approximately 
$8 billion annually nationwide. But according to the EPA, $2 
billion of these dollars can be saved by improving energy 
efficiency. In your testimony you mentioned that the Department 
of Energy currently provides technical assistance to a number 
of K through 12 schools across the country to help them achieve 
voluntary commitments of 20 percent or better energy savings in 
their facilities through the Better Buildings Challenge. Thank 
you very much.
    Do you believe that the Renew America's Schools Act will 
assist DOE in achieving these targets?
    Mr. Simmons. What the--with achieving those--with helping 
those schools achieve those targets, yes. Anytime that we have 
increased emphasis coming from Congress, it is obviously very 
important to the Department because we strive to meet, well, we 
strive to follow Congressional guidance, but more important, we 
very much strive to meet our statutory obligations.
    Senator Cortez Masto. Thank you, I appreciate that.
    Let's talk about conversations we have had on cybersecurity 
and workforce and the lack of the workforce to help us with 
cybersecurity needs. So let me ask you this. As we work to 
implement newer, smarter energy technologies, is there more DOE 
can be doing to reduce the risk of cyberattacks? And how can we 
help in this conversation?
    Mr. Simmons. There is definitely more that we could be 
doing. We're obviously doing a lot. Our Office of--the 
Secretary has emphasized the cybersecurity work with the 
standing up of the Cybersecurity for Energy Security and 
Emergency Response. That office is a new office that there 
isn't, it is not--we do not have a ton of people currently 
working in that office, for example. So more people is one 
answer where----
    Senator Cortez Masto. And is that a challenge? Can you 
address that, I mean?
    Mr. Simmons. Well, it would be----
    Senator Cortez Masto. Are we having an issue because there 
is a lack of the workforce, the skills needed to fill that 
office, or what are the challenges there?
    Mr. Simmons. It would be easiest to address in questions 
for the record, just to be clear since it's not my office.
    Senator Cortez Masto. Okay, fair enough.
    Mr. Simmons. I think that we have the skills but it's also, 
it is a new office that is dealing with a rapidly changing 
situation in cybersecurity and they definitely need appropriate 
resources to carry that out.
    Senator Cortez Masto. Okay, I appreciate that.
    Geothermal, we talked a little bit about that earlier, and 
I so appreciate the work that our Chairman Murkowski and our 
Ranking Member Manchin have done to include geothermal in 
today's discussion. I know that geothermal energy will play a 
key role in the fight against climate change by providing 
clean, renewable, low-carbon energy to the U.S. electricity 
grid.
    Looking into the future, the large-scale deployment of 
renewable electricity generation will require additional 
transmission to connect renewable resources which are 
widespread across the United States and regionally constrained, 
to load centers. Current interconnection issues facing 
geothermal power differ greatly from those affecting wind power 
or other renewable technologies, and assessing regional markets 
via new transmission largely depends on the ability to 
aggregate several geothermal plants in the same area or on 
aggregating geothermal with other complementary generating 
technologies in renewable energy zones.
    Based on your expertise, what is the best way to accelerate 
transmission upgrades across the country and what is the best 
way for DOE to contribute?
    Mr. Simmons. You know, that answer is, again, squarely 
within the Office of Electricity's area which, so we'll be 
happy to provide a more expansive answer with the testimony 
later.
    Senator Cortez Masto. I will submit those as well from----
    Mr. Simmons. And it is really challenging to build 
transmission in this country, especially long-distance 
transmission. One good example of that is a power line called 
Sunrise Powerlink that took, that was, well, that currently 
takes electricity from the Imperial Valley in California to the 
coast.
    It is California. They wanted to produce the, you know, 
they want to produce the solar power. They want to use it on 
the coast. Everything is a piece of cake in that sense. And it 
was incredibly difficult to permit and took years and tons and 
tons of money. And so, the regulatory challenges of power lines 
are very difficult.
    Secretary Perry, when he was Governor of Texas, was able to 
do that in Texas but that is a single state. Anytime that we're 
also then crossing borders, when it is federal land, federal 
and state and private land, there are just incredible 
challenges to, incredible permitting challenges. And reducing 
those challenges are, is, I think, a priority, not only for 
geothermal, for wind, for solar, for all of our energy 
generating resources.
    Senator Cortez Masto. Yes, no, I appreciate that. Thank 
you.
    Senator Cassidy. Do you want to go?
    Senator Heinrich. Sure.
    Thank you for being with us. I want to piggyback on that 
because transmission has been something I have worked a great 
deal on in New Mexico. We have had luck on certain lines and 
been able to get big things done. At other times, we have 
experienced exactly what you said, although it has not always 
been the regulatory hurdles. Oftentimes, it has been, frankly, 
political hurdles. And we have seen that with lines, like Clean 
Line. There is a best-selling book out there about it right 
now. So we do need to figure this transmission thing out.
    I gave a speech recently to a bunch of folks working on 
transmission in Canada and the United States. One of the things 
that I talked about is the potential to look at financing 
incentives to make it easier to build those big, regionally 
significant, multistate projects.
    One thing that would actually have a relatively low price 
tag would be extending an investment tax credit to regionally 
significant projects as a way to leverage the financing and buy 
more time to get those projects done. Is that something that 
you have looked at at DOE, and what are your thoughts, off the 
top of your head?
    Mr. Simmons. That is not something that we have looked at 
at DOE, investment tax credits in that situation. But you know, 
from a very broad perspective, that financing is obviously 
critical and when we have these other hurdles, whether they're 
political, whether they're regulatory, it just increases those 
financing costs and makes those projects much more difficult.
    Senator Heinrich. Well, heads up, you may be seeing 
legislation on that front. So it is--would love DOE's thoughts.
    The next big wave of wind power projects--and we have seen 
some incredibly successful wind power projects really 
reinvigorate rural communities in Eastern New Mexico, in 
particular. Some very healthy lease rates to farmers is making 
all the difference in the world. You know, when you can get 
over $10,000 a turbine in terms of a payback, that can mean the 
difference between having a farm that is profitable and having 
one that is not, even if you only have one or two turbines on a 
farm.
    But the next big wave of wind power projects is going to be 
offshore. That is not what we are going to do in New Mexico, 
but there is huge power demands all up and down the Eastern 
Seaboard, and very favorable conditions.
    Senator King. You will, unless we get climate change under 
control.
    Senator Heinrich. Okay.
    Senator King. The New Mexico coastline is what I am----
    Senator Heinrich. Yes, I gotcha, okay.
    [Laughter.]
    We may have offshore at some point in the future.
    I would like to know, what is DOE doing now, specifically, 
to bring down the cost curve the way we have seen it in 
terrestrial wind for offshore wind?
    Mr. Simmons. So offshore wind is one of the key areas of 
emphasis for us because it is a--as you mention we have seen 
that cost curve really decline in terms of onshore wind. 
Offshore, we haven't seen that as much, plus deployment in the 
United States we have, I think, four turbines in the water is 
all. So that there is a----
    Senator Heinrich. One project, Block Island.
    Mr. Simmons. One project.
    And so there is a lot of opportunity. So we have offshore 
wind demonstration projects. One is the University of Maine, 
another one in Lake Erie that we are funding. We also have, 
there's some new funding to look at ways to improve offshore 
wind technology, looking at things such as superconducting 
generators, for example, because one of the real challenges 
when you have these very large machines at 12 or, at 12 
megawatt machines or even bigger, is that you want less weight 
in the nacelle in the top of those machines.
    Senator Heinrich. Right.
    Mr. Simmons. And so, ways that we could drive down those--
that weight.
    Senator Heinrich. So basically material science to----
    Mr. Simmons. It is.
    Senator Heinrich. ----to change the nature of what is 
currently very heavy machinery at the apex of the turbine and 
nacelle.
    Mr. Simmons. Very heavy machinery and then as we have these 
longer blades, making sure that those longer blades are also, 
you know, structurally sound as well as, you know, looking to 
the future. And as we are recycling these blades, looking at 
ways to make sure that the wind blades are inherently 
recyclable.
    Senator Heinrich. Right. Good.
    Mr. Simmons. That hasn't necessarily been a big issue so 
far because of----
    Senator Heinrich. But it will be in the future.
    Mr. Simmons. But it will be in the future.
    Senator Heinrich. I think it is worth just pointing out 
what you said about, you know, a 10 to 12 megawatt, a single 
turbine producing 10 to 12 megawatts. I mean, that is pretty 
incredible when you think about that. And we are talking about 
capacity factors that are nudging above 50 percent. So capacity 
factors that are in excess of what we see from coal generation 
in the spring months in the United States. This is an enormous 
game changer.
    Senator Cassidy. Senator King, did you want to ask 
questions?
    Senator King. Well, I just wanted to add to that and thank 
the Department for its steadfast support of the Aqua Ventus 
program in Maine which, I think, is one of the most promising 
technologies. We are at the beginning of the cost curve because 
there are not significant or there are not a substantial number 
of projects. That will happen, but your support, the 
Department's support, consistently, has meant a lot. And I 
think that project is really getting very close to having all 
the pieces together. So I wanted to thank you for that.
    And also, thank you for your interest in combined heat and 
power. That is a technology that we have in hand, and I know 
the Department has been supportive. You have been up to the 
University, and the technical support center, I think, is 
making a real difference for businesses throughout the country 
actually.
    So I think the Department has identified something like 150 
gigawatts of potential power from combined heat and power 
potential in the country. That compares to 300 good-sized power 
plants. So very efficient use, and I appreciate your work and 
look forward to continuing to work with you on these projects.
    Mr. Simmons. Thank you.
    Senator King. Thank you, Mr. Chairman.
    Senator Cassidy. Mr. Simmons, thank you for being here.
    So this is on my mind. I have a friend. He is very proud 
his son works for the Livermore lab. The bill that I and others 
are promoting is the Office of Technology Transitions, 
elevating it, if you will in the, kind of, chart, to have more 
authority, if you will.
    How do you imagine your office working with an elevated 
authority OTT to take all this great research occurring at 
places like Livermore into the private sector? First question.
    Mr. Simmons. Well, this is--this, I believe, is critical 
work. It is not enough for us to do science projects. We need 
to get those science projects into the real world. They need to 
be, you know, our goal is obviously to commercialize those in 
the United States.
    A good example of both us doing a fantastic job and maybe 
not the best job is the recent Nobel Prize for Chemistry. Two 
of the three winners of that award have been funded by the 
Department of Energy for years. So kudos to my predecessors in 
the Office. Kudos to the staff for funding those technologies, 
because lithium-ion battery technologies have literally changed 
the world.
    That is fantastic. But we look at that today and we say, 
this technology was, you know, in large measure created in the 
United States and where are we today in terms of manufacturing? 
We need a focus on R&D around manufacturing so that we don't 
just create the knowledge but we're also then creating those, 
we're creating the manufacturing, those jobs here in the United 
States.
    Senator Cassidy. So, let me ask.
    Mr. Simmons. That is a challenge.
    Senator Cassidy. So let me ask. You are obviously talking 
about not just the genesis of a new paradigm, but also the 
production process by which that becomes commercially viable. 
Fair statement?
    Mr. Simmons. Correct, correct.
    Senator Cassidy. Now I find, I come from academia, and I 
find that there are some academic institutions--which I think 
of our major labs as being academic--that are very good at 
translation with an entrepreneurial spirit and others, not. 
There is some linchpin that is lacking.
    And I think when you think of prestigious universities, 
Stanford's done a fantastic job of commercializing the product 
of their faculty and spin-offs from their grad students into 
things that we can all immediately recognize. Equally 
prestigious universities, not so much.
    Is there something that we can add? Is there something 
missing? Is there something we can add? How do we foster that, 
sort of, entrepreneurial spirit? You see where I am going with 
this?
    Mr. Simmons. Yes, and that's a really, really tough 
question, obviously. It is something that we are thinking about 
frequently at the Department. If we necessarily knew what that 
thing to add is, we would definitely be asking for it.
    You know, the National Renewable Energy Laboratory, is the 
lab over which my office has stewardship, does really quite a 
good job in this area, for example. One of the things that we 
are thinking about and that we will be meeting with the Office 
of Science and the Office of Technology Transitions in the 
pretty near future on is a discussion of how do we incentivize 
that innovation? How do we do a better job? How do we have that 
focus on innovation?
    We need to have a focus. We need the ideas. We need those 
basic ideas. But then, we also need a focus on innovation for 
getting those technologies into the real world. And it is an 
exceedingly hard challenge, especially because the speed of 
business is faster than the speed of government. And in some 
way, that's not a bad thing, it just is, because we are 
stewards of taxpayer dollars. So we need to be careful with how 
we're spending that money. That said, we need to figure out how 
to do that more efficiently, more quickly and the Office of 
Technology Transition is focused on that right now.
    Senator Cassidy. Out of your purview, but are there offices 
say, NIH, NSF, others within the government that you see doing 
a good job of commercializing, that hopefully can provide an 
example of how we can do so elsewhere?
    Mr. Simmons. I don't know of those, but that is, that is 
something that we will look into.
    Senator Cassidy. I will say it has been my observation 
there is a university in Louisiana, Louisiana Tech. They do a 
fabulous job of commercializing what they do. I think it is in 
part because they kill all the lawyers first.
    I am just teasing, for the record.
    [Laughter.]
    But of course, lawyers are so concerned about what is going 
to happen if it doesn't go exactly right that nothing ever 
goes.
    On the other hand, if you are willing to accept that 
occasionally there will be a rough edge, you end up with an ROI 
that is much greater than otherwise.
    I will just point that out. If there is something that you 
need to do, I think, that would be bipartisan. If we need to 
get, cut a little slack on a regulation, that would allow more 
rapid commercialization because otherwise it dies aborning and 
we don't want that.
    We have these great labs. We are investing, and we would 
invest more if we saw the fruits, if you will, rapidly being 
translated into benefit for all society.
    Senator Heinrich, do you have a follow-up?
    Senator Heinrich. I do.
    You know, some of that is our fault here in Washington, 
because if you look at programs like the revolving loan funds 
at DOE, we saw one company just absolutely pilloried a few 
years ago in that program. But if you look at the program 
overall, you have to accept the fact that a certain amount of 
risk is inherent in it. And the performance of that program has 
been spectacular.
    You can always, you know, it is too easy for us to cherry-
pick one thing or another and not look at the overall 
performance. Everyone knows the name Solyndra now, but the 
reality is the cost of solar is remarkably low because of the 
progress that was made overall.
    I want to go back to the tech transfer issue for just a 
minute, because I think there is a lot that you can do to make 
tech transfer part of what DOE does.
    I have had DOE, some very accomplished people, including a 
secretary, say things effectively like that is not in our lane. 
And I think making tech transfer a part of the culture at DOE 
will make an enormous difference at those individual national 
labs. Just being able to set a tone here in DC that says, this 
is part of what we do as being the Department of Energy. And we 
are going to encourage entrepreneurship. We are going to 
encourage efforts to transfer technology, I think, would be 
huge.
    Secretary, you also mentioned soft costs when you were 
talking about the grants that you are awarding right now. 
Senator Collins and I have a bill that is designed really to 
streamline and, for that matter, create an easy, more 
standardized approach to soft cost, to permitting from a 
locality, whether it is a municipality, a county, whoever the 
local regulatory agency is when you are doing distributed 
energy, not reinventing the wheel every time. Giving people the 
tools to be able to do something, sort of, off-the-shelf.
    Australia kicks our butts at this. If you look at the cost 
of distributed energy in Australia, it is dramatically lower 
than the United States because of those soft costs. I would 
love to hear what you are doing now, since you are putting 
grant dollars out in that direction. Anything the Department is 
doing to bring those soft costs down and support those local 
municipalities, counties, et cetera.
    Mr. Simmons. Well, one of the things we're doing is looking 
at those, looking at those best practices, providing 
information so that local authorities having jurisdiction can 
make--that they don't need to reinvent the wheel every single 
time because that is, that is critical. We all, you know, local 
officials are hardworking. They have many of things in their 
portfolio. They do not need to reinvent the wheel----
    Senator Heinrich. Right.
    Mr. Simmons. ----when it comes to what it takes to install 
solar----
    Senator Heinrich. Those regulations, those codes are 
designed for safety, but we know what the issues are. So, 
making sure that that is part of any, sort of, off-the-shelf 
solution is not a technically, particularly challenging 
challenge.
    Mr. Simmons. Yeah. And that's, that is really what that 
funding is going to is to help reduce that, to help reduce that 
red tape of not only solar, but also, as we look to the future, 
solar plus batteries.
    Senator Heinrich. Sure. Oh, absolutely. When I say solar, 
these days, everybody is like, a large percentage of the 
installments in many places include some level of energy 
storage.
    Power-to-gas, I want to ask you about that because it is 
something that I think we are going to hear more and more about 
on this Committee. The reality is for some applications we need 
molecules to have the energy density to do the things that we 
want to do.
    One way to do that is through hydrolysis. And so, you are 
seeing now, you know, we have a nuclear power plant in Arizona 
that the New Mexico utilities use as a source of energy, but 
they are now talking about power-to-gas as a portion of their 
future. So basically, creating clean hydrogen, something that 
burns and gives off water, but doing it with electricity. How 
much work is DOE doing on power-to-gas right now?
    Mr. Simmons. So this is a, I mean, this is an emerging area 
of emphasis for us. So, for our Office of, for our Hydrogen and 
Fuel Cell Technologies Office, one of the most important areas 
is this idea of what we call hydrogen at scale which is looking 
at a hydrogen economy and what are all the uses, possible uses 
of hydrogen, what are all the ways where we can generate 
hydrogen?
    So, looking at it in that aspect, whether it is from 
nuclear power, whether it is nuclear power using the heat, not 
just necessarily electricity, whether it's from solar and 
electricity or the heat from solar energy. Looking at, making 
sure that we have everything on the table to figure out how to 
do this in the most cost-effective way possible because there 
is, the future is really wide open because of how flexible 
hydrogen is as a fuel for vehicles, you know, for heavy duty 
vehicles. It is, that's a great opportunity for it, for 
example.
    But also, it's, it can be a form of energy storage and 
long-term storage. There are many opportunities but, you know, 
one of the most important things is to then drive down the cost 
of generating it.
    Senator Heinrich. Right.
    Mr. Simmons. And so, that's why it's critical.
    And I'll also mention, along those same lines, is we're 
thinking about synthetic fuels--hydrocarbon fuels need 
hydrogen. It needs a source of carbon, whether that could come 
from well, wherever you're getting your carbon dioxide and then 
needs energy. Bringing those three things together to generate 
synthetic fuels so that we can afford things such as airplanes 
where we're not going to have electric airplanes in the next 
ten years, for example.
    Senator Cassidy. Senator McSally.
    Senator McSally. Thank you, I appreciate this hearing, 
Chairman Cassidy and Ranking Member Heinrich.
    I have two bills that I am the lead Republican co-sponsor 
on that we are considering today: the Promoting American Energy 
Jobs Act with Senator Shaheen and the Solar Energy Research and 
Development Act with my fellow Arizona Senator, Senator Sinema.
    Arizona truly is a leader in all-of-the-above energy. We 
have a large nuclear plant, natural gas, coal, but also hydro, 
a growing solar capacity and biomass. In fact, we are the 
fastest, one of the fastest growing anyway, in solar industry 
nationwide. We are currently number three in installed solar 
capacity. We were up from ninth place in 2018 and that is 7,500 
jobs, $11 billion in investment in the state.
    So both of the bills that I am leading on with my 
colleagues will help support these diverse energy jobs in 
Arizona and across the country and allow us to invest in more 
innovation.
    I did see today that DOE announced $128 million in new 
research funding awards and there are several projects in 
Arizona. So I really do appreciate the Department's work in 
this area and continued investment in Arizona.
    I want to first ask on the Solar Energy Research and 
Development Act that Senator Sinema and I are on that bill. We 
have, really, two of the most essential ingredients in Arizona 
for solar research. It is, obviously we have open space and we 
have sunshine. But we also have innovation in our universities 
and private companies have been really investing billions in 
solar technology development in Arizona, and we have lowered 
that cost of solar energy by 32 percent over the last five 
years.
    Can you share your perspective on how this legislation will 
continue to incentivize and encourage breakthroughs in 
technology related to solar capability?
    Mr. Simmons. Sure thing.
    The one thing that is always, it is always good to have 
direction from Congress. We'll just put it that way.
    Senator McSally. Yes.
    Mr. Simmons. And particularly in this, one of the things 
that I've talked to the program offices a lot about is what 
does our authorization say? What has Congress told us to do?
    And so, it is very important for us to have updated 
authorizations to consider today's challenges versus what was 
maybe the, what people were thinking about the challenges for 
solar energy, say 30 years ago? And that added emphasis is 
important. We are obviously trying our best with the 
authorization that we have but we will continue to fund solar 
energy because the costs have come down so much. So it will 
only be a more vital part of our energy system in the future.
    Senator McSally. Great, thanks.
    When we talk about clean energy technologies like solar, we 
also need to talk about supply chain issues. Whenever I meet 
with people who are very focused on these technologies like 
solar, I say, you must be pro-mining because we obviously need 
to be able to access important parts of the supply chain in 
order to create these technologies and to store energy. And 
that, sometimes, alarms people when they have to think about 
the connection with that.
    But part of our bill also, the bill I have with Senator 
Sinema, is about authorizing innovative solar recycling R&D 
programs so that we can increase the recovery and reuse of 
materials including critical minerals. Can you just talk a 
little bit about how we can have more efficient recycling work 
in tandem with domestic mining operations to bring security and 
stability to the clean energy supply chain?
    Mr. Simmons. Sure.
    And I'll start by emphasizing the mining angle. The World 
Bank put out a report in 2017 and what they found in it is that 
the clean energy economy, as they defined it--wind, solar, 
additional batteries, EVs--is actually a more mineral intensive 
economy than a fossil fuel economy.
    Senator McSally. Exactly.
    Mr. Simmons. And so, as we think about the future, it is 
very important that we're thinking about where those minerals 
come from. The United States is going to produce those 
minerals, that we are going to produce them at the highest 
environmental standards, the highest labor standards in the 
world. So I think that is, first of all, that is an important 
issue.
    Second, when we have those, when we have these critical 
minerals, in many cases, in the United States, it is very 
helpful that we can do a good job recycling them.
    With solar panels, in the very beginning they weren't 
necessarily manufactured with recycling in mind. Now that is a 
consideration that we're thinking about. That is an area of, 
that our office is considering how do we take these solar 
panels and make them more inherently recyclable? When wind, 
when solar was a very small part of the electricity system, it 
didn't matter so much. But it is not that way now and we need 
to think about, like, the end of life considerations from the 
very beginning because that is the way to make them inherently 
recyclable as opposed to, you know, running into some real 
serious recycling challenges.
    Senator McSally. Great. Thank you, I appreciate it. My time 
is up.
    Senator Cassidy. I think we have come to the end----
    Senator Heinrich. Can I----
    Senator Cassidy. Sure.
    Senator Heinrich. So I will put one more thing on your 
radar screen. Since we were talking about power-to-gas, one of 
the reasons why I have an interest in that is because of the 
broad challenges that we see in the industrial heat sector.
    If you look at electric generation, I think the end of the 
story is practically written. We know where we are headed. We 
know how it is going to decarbonize over time. We can see our 
way to maybe 80 percent clean energy on the grid, and by the 
time we get there we will be able to see, I believe, some of 
the solutions for seasonal storage that get us to 100 percent.
    We don't have those same solutions yet, and certainly not 
the cost curve, which you referenced, when it comes to the 
industrial heat sector. You can make hydrogen with a nuclear 
power plant but a nuclear power plant can't create the heat 
that you need for some of these processes.
    So if you look at steel, aluminum, ammonia, glass, 
concrete, all of the industrial heat processes, we are talking 
about roughly ten percent, I think, of worldwide emissions. And 
most of that is not necessarily process emissions as opposed to 
generation emissions.
    What we are doing at a holistic level is to look across the 
board at that and say, here is one of the toughest places for 
us to decarbonize, and we need a solution set that either isn't 
available today or isn't cheap enough today, and how do we work 
with industry to maybe create a center of excellence somewhere 
in the DOE network and work with industry to bring those 
emissions down?
    Mr. Simmons. So the issue of process heating is one that 
our Advanced Manufacturing Office is spending a lot of time 
thinking about, about what that, for exactly the challenges 
that you laid out, it is a huge consumer of energy. Ways to 
make that more efficient results in, you know, U.S. businesses 
being more, U.S. manufacturing being more competitive in a 
global economy.
    Again, it's not obvious what a lot of those solutions are, 
but it is an area that we are actively thinking about whether 
it is things such as microwaves, for example, in certain 
applications, for heating or drying technologies. But we 
recognize the challenge.
    Senator Heinrich. It sounds like we have a lot of work to 
do.
    Mr. Simmons. We definitely have a lot of work to do.
    Senator Cassidy. Thank you, Mr. Simmons.
    Questions for the record are due by close of business 
today.
    Again, I thank you for your presence and thank my 
colleagues for their presence.
    This concludes the hearing.
    [Whereupon, at 10:57 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre></body></html>
